U.S. GENERAL SERVICES ADMINISTRATION 

OFFICE OF INSPECTOR GENERAL

     Review of the Heating Operation and Transmission
                    District’s Operations and Finances

                                   Final Audit Report
                                A060170/P/W/R07005
                                  September 13, 2007
                              Washington Field Audit Office
                                          Washington, DC
GSA/OIG/A060170/P/W/R07005   

GSA/OIG/A060170/P/W/R07005



TABLE OF CONTENTS

EXECUTIVE SUMMARY
   PURPOSE .............................................................................................................................1 

   BACKGROUND .....................................................................................................................1 

   RESULTS-IN-BRIEF AND RECOMMENDATIONS .....................................................................1 

INTRODUCTION
   BACKGROUND .....................................................................................................................4 

   OBJECTIVE, SCOPE AND METHODOLOGY ............................................................................5 

RESULTS OF REVIEW
   SUMMARY ...........................................................................................................................8 

   FINDINGS ............................................................................................................................8 

   1.    HOTD Rate Setting Procedures Preclude a Full Cost Recovery............8

   2.    Planned Energy Savings from Cogeneration System Not Realized ......10

   3.    Lack of Strategy Leaves West Plant Idle and Deteriorating.................13

   4.    Controls Over Fuel Oil .........................................................................15

   5.    Other Accounting Concerns..................................................................17

   CONCLUSION .....................................................................................................................21 

   RECOMMENDATIONS .........................................................................................................22 

   MANAGEMENT’S COMMENTS ............................................................................................23 

   MANAGEMENT CONTROLS ................................................................................................23 

APPENDICES
 MANAGEMENT’S COMMENTS ........................................................................................... A-1 

 ASSETS INCLUDED IN HOTD ORGANIZATIONAL CODE FOR FINANCIAL REPORTING 

 PURPOSES......................................................................................................................... B-1 

 FY2005 HOTD NET LOSS ............................................................................................... C-1 

 FY2005 HOTD COST ALLOCATION BY BUSINESS LINE .................................................. D-1 

 REPORT DISTRIBUTION .....................................................................................................E-1 

GSA/OIG/A060170/P/W/R07005



EXECUTIVE SUMMARY
Purpose
The purpose of this review was to conduct a comprehensive assessment of the Heating
Operation and Transmission District (HOTD), both its operations and finances. The
objectives were three-fold: to determine if HOTD operates and utilizes its assets
economically, efficiently, and securely to reliably provide steam and chilled water, to
determine if management controls are sufficient to safeguard HOTD assets, and to
determine if HOTD is accountable for revenue and expenses to derive utility rates that
recover costs and charge customers appropriately.

Background
HOTD provides steam and chilled water utility service to government and quasi-
government customers. Steam is used for heating space and hot water; chilled water is
utilized for cooling space and dehumidifying. In FY 2005, HOTD serviced 76 customers
over approximately 50M gross square feet. There are four major assets involved in
providing HOTD utility services: the Central Heating Plant, the Central Refrigeration
Plant, the West Heating Plant, and the Steam Distribution Tunnels.

HOTD is a unique organization within GSA, providing utility service to federal agencies
throughout the National Capital Region (NCR). Throughout HOTD’s history, Congress
has also authorized HOTD to service non-federal government customers, such as the
Daughters of the American Revolution, Organization of American States, and Smithsonian
Institution. In FY 2005, HOTD serviced 28 buildings outside of the GSA inventory. For
financial reporting purposes, these buildings were included in the HOTD organization as
they only have a relationship with GSA for utility services.

Results-in-Brief and Recommendations

1.	 HOTD evaluates its customer billing rates on the basis of cost projections that exclude
    certain operating expenses. The two primary exclusions are general and administrative
    (G&A) expenses and depreciation. One consequence of this decision is that the HOTD
    organization regularly incurs a substantial loss; for the fiscal year ended September 30,
    2005, it lost $20.3 million on revenue of $51.9 million. The agency financial system
    does not account for this organization as a discrete entity so the effort needed to
    compile the financial results is considerable.

       Recommendations:
       •	 Prepare annual financial statements for HOTD that comply with Federal
          Accounting Standards.
       •	 Subject the HOTD organization to more rigorous financial and operational
          analysis. HOTD would benefit from dedicated financial support and could
          likely justify a full time financial specialist.



                                             1

GSA/OIG/A060170/P/W/R07005


2.	 HOTD’s investment in a cogeneration system has not resulted in the energy savings
    planned to help fund that acquisition. The expectation was that the cogeneration
    system would provide for all of the plant’s electricity needs and produce a surplus for
    sale back to the utility company. In fact, the plant remains a net consumer of
    electricity. There are several contributing factors, but ultimately the system has been
    operated at about 32 percent of its theoretical availability and its performance variance
    from specification has not been tested.

       Recommendations:
       •	 Develop a boiler operating plan that takes into account market conditions and
          relative efficiency of the equipment.
       •	 Instruct the contracting officer to assemble a contract file for the
          chiller/cogenerator procurement and to fulfill his administrative
          responsibilities under this procurement.
       •	 Ensure that the contracting officer designate a qualified individual to serve as
          the contracting officer’s technical representative.
       •	 Replace the deficient induced draft fan to permit as-designed system
          functionality and performance testing of the cogeneration system.

3.	 HOTD’s West Plant facility is idle and deteriorating and there is no long-term strategy
    in place to remedy this condition. In addition, there is no established contingency plan
    to deal with a full or partial plant shutdown. As currently configured, a major
    disruption to the Central Plant could have a significant impact on the executive branch
    of the federal government, as HOTD services multiple headquarter agency buildings,
    the Executive Office Buildings, and the White House.

       Recommendations:
       •	 Utilizing the PBS portfolio management methodology, determine the best use of
          the West Plant asset and develop a workable strategy. Consider the possibility
          of restoring the West Plant with an energy savings performance contract.
       •	 Devise a contingency plan for providing utility services in the event Central
          Plant operations are interrupted.

4.	 Five of the six boilers used to generate steam at HOTD’s Central Plant are periodically
    powered by fuel oil as an alternative to natural gas. While not the primary energy
    source, fuel oil does represent a significant cost. HOTD recorded fuel oil expense of
    $2.1 million in FY 2005, accounting for five percent of total utilities expense. Control
    over this asset is weak; the risk that a fuel oil loss or shortage would go undetected is
    unacceptably high.

       Recommendations:
       •	 Account for fuel oil in accordance with generally accepted accounting
          principles: the commodity should be carried by HOTD as an asset until
          consumed; its value should be derived from a consistently applied inventory
          valuation method; fuel oil expense should be determined on the basis of actual
          fuel consumed in the period reported.

                                             2

GSA/OIG/A060170/P/W/R07005                                  



       •	 With respect to specific internal controls: determine fuel oil consumption using
          the automated gauges on the boilers; maintain the fuel oil delivery log; perform
          periodic inventory reconciliation of fuel oil to provide reasonable assurance of
          accuracy and to detect loss.

5.	 Review of the financial aspects of HOTD’s operations yielded several accounting
    weaknesses: inappropriate accounting for energy conservation project depreciation
    expense; incorrect RWA type, lack of a discrete HOTD identifier; lack of a business
    line cost allocation model.

       Recommendations:
       •	 Discontinue the use of recurring Reimbursable Work Authorizations (RWA) for
          HOTD services in order to correct accounting data. HOTD sales should be
          recognized as revenue, not a contra expense. Consider the development of an
          RWA type specific to HOTD utility sales.
       •	 Recognize the HOTD organization as a discrete facility within the financial
          system.
       •	 Develop the capability to isolate HOTD financial activities by business line.




                                            3

GSA/OIG/A060170/P/W/R07005




INTRODUCTION

Background
The General Services Administration’s (GSA) Heating Operation and Transmission
District (HOTD), within the Public Buildings Service (PBS) National Capital Region
(NCR), provides steam and chilled water utility service to government and quasi-
government customers. Steam is used for heating space and hot water; chilled water is
utilized for cooling space and dehumidifying. In FY 2005, HOTD serviced 76 customers
over approximately 50M gross square feet. There are four major assets involved in
providing HOTD utility services: the Central Heating Plant, the Central Refrigeration
Plant, the West Heating Plant, and the Steam Distribution Tunnels. The Central Heating
Plant houses five boilers and a boiler-like heat recovery steam generator. The total plant
capacity is 1.57M pounds per hour (pph) steam, with a firm capacity (capacity without one
of the two largest boilers) of 1.17M pph. The Central Refrigeration Plant, located within
the Central Heating Plant, includes eight chillers. Six of the chillers are electric and two
chillers are driven by steam turbines. The total chiller capacity is approximately 17,000
tons, with a firm capacity less than 15,000 tons. The West Heating Plant houses five
boilers with a total capacity of about 1M pph steam and a firm capacity of about 800,000
pph, however the West Heating Plant has not been in operation since 2000. The Steam
Distribution Tunnel system that moves steam throughout the HOTD service area consists
of seven miles of underground tunnel and five miles of buried pipe.

HOTD is a unique organization within GSA. The concept of a centrally located heating
plant received congressional approval in 1913, however war efforts pushed construction
commencement to 1933. The initial plan was for a centralized plant to service federal
buildings around the White House and Triangle areas of Washington, DC. Throughout
HOTD’s history, Congress has also authorized HOTD to service non-federal government
customers, such as the Daughters of the American Revolution, Organization of American
States, and Smithsonian Institution. In FY 2005, HOTD serviced 28 buildings outside of
the GSA inventory.

Eighty-nine employees worked in HOTD in 2005. These employees were organized
throughout four divisions: Maintenance and Engineering, Production and Environmental,
Maintenance and Engineering Steam Distribution, and Administration and Systems. A
decrease in the salary expense of HOTD associates from 1996 to 2005 was balanced by a
nearly equal increase in contract costs during the same period.

Recently, one of the most significant changes within HOTD was the completion of a
chilled water expansion/cogeneration project in December 2004. This $69M project
installed eight chillers and a cogeneration system in the Central Plant. The increased
chiller capacity allowed HOTD to extend chilled water service to the Smithsonian
Institution. The cogeneration system allows HOTD to use its heat recovery steam
generator to produce steam and also electricity as a by-product from waste. Electricity
produced exceeding the needs of the plant itself results in credits from the local electricity


                                              4

GSA/OIG/A060170/P/W/R07005



company. By incorporating energy savings guarantees, the project was able to use a
commercial funding source.

Objective, Scope and Methodology
The objectives of this review were to determine: 1) if HOTD is operating and using its
assets economically, efficiently, and securely to reliably provide steam and chilled water to
its customers, 2) if management controls are sufficient to safeguard HOTD assets, and 3) if
HOTD is accountable for revenues and expenses to derive utility rates that recover costs
and charge its RWA customers appropriately.

The scope of our fieldwork included HOTD activity, both operational and financial, during
FY 2005 through July FY 2006. To accomplish the audit objectives, we:

       Operational
       •	 Toured the Central and West Heating Plants to observe HOTD’s control
          environment for operations and assess the status of the West Heating Plant;
       •	 Reviewed HOTD studies performed by independent contractors, reports to the
          Environmental Protection Agency, District of Columbia Air Quality Operating
          Permit, relevant GSA Orders, HOTD’s Operations Manual for Fuel Handling
          and other relevant laws and regulations;
       •	 Held discussions with special agents of the Department of Homeland Security,
          Federal Protective Service and a member of PBS NCR’s building security
          committee to identify physical security concerns; reviewed security assessment
          report prepared by the Department of Justice, and the Department of Homeland
          Security, Federal Protective Service policy directive regarding building
          security;
       •	 Met with associates in HOTD’s Maintenance and Engineering and Production
          and Environmental divisions regarding natural gas operations, fuel oil handling,
          chilled water production, and cogeneration;
       •	 Spoke with the PBS NCR Portfolio Management Division regarding the status
          of and strategy for the West Heating Plant;
       •	 Met with associates in the Central Office Energy Center of Expertise to
          understand aspects of their natural gas contract, natural gas industry standards
          and measurements, transportation charges, futures and spot market purchases,
          questionable invoices, and other contract requirements;
       •	 Held discussions with the Defense Logistics Agency contracting office to
          ascertain their role in HOTD’s procurement of fuel oil;
       •	 Held discussions with local building managers at the Department of
          Transportation, Department of Housing and Urban Development, and the
          Reporter’s Building to identify their buildings’ heating and cooling
          arrangements;
       •	 Reviewed available HOTD in-house documents including Monthly Fuel
          Quantity Reports, Fuel Reports for production, Boiler Engineer Technician
          Daily Logbooks, and ad hoc natural gas schedules;

                                             5

GSA/OIG/A060170/P/W/R07005                                  




      •	 Reviewed monthly and hourly data regarding electricity generation by the
         cogeneration system and Pepco Energy Services electricity charges for FY
         2005;
      •	 To verify fuel oil delivered we reviewed fuel oil invoices, fuel receiving logs,
         and Bills of Lading for FY 2005 and FY 2006 through July;
      •	 Reviewed the natural gas contract with Washington Gas Energy Services
         effective during audit fieldwork, all futures placed, and all FY 2005 invoices;
         and
      •	 Reviewed Washington Gas Energy Services’ bulletin boards that disclose daily
         natural gas quantity, type, and quality delivered to HOTD.


      Financial
      •	 Met with associates in HOTD’s Administration and Systems division regarding
         utility rate setting, business line cost allocation and RWA processing;
      •	 Discussed the HOTD organization and HOTD’s FY 2005 financial performance
         with the PBS NCR Financial Management Division;
      •	 Extracted financial data for FY 2005 for the entire HOTD organization from the
         Financial Management Information System (FMIS) and PilotWorks. Obtained
         HOTD-related manual worksheet adjustments to GSA’s financial statements
         made by the PBS Fort Worth Accounts Receivable & Financial Analysis
         Division. Used complete financial data to develop HOTD profit and loss
         statement;
      •	 Compared financial system data with HOTD internal financial analysis,
         focusing on analyzing the utility rate setting process;
      •	 Reviewed legislation authorizing HOTD to service non-Federal Buildings Fund
         customers;
      •	 Reviewed documentation relevant to the chilled water/cogeneration energy
         conservation project and researched legislation authorizing alternative financing
         for energy savings projects;
      •	 Spoke with former contracting officer’s technical representative for energy
         conservation project;
      •	 Discussed accounting for the chilled water/cogeneration project with associates
         from the PBS Central Office Financial Operations Division, Central Office
         Financial Consulting and Analysis Division, and PBS Fort Worth Accounts
         Receivable & Financial Analysis Division;
      •	 Reviewed Reimbursable Work Authorization (RWA) guidance and FY 2005
         RWAs for HOTD service;
      •	 Researched accounting guidance regarding revenue recognition and contra
         expenses; and
      •	 Applied the HOTD-developed cost allocation methodology segregating costs
         between the steam and chilled water business lines.




                                           6

GSA/OIG/A060170/P/W/R07005



Audit fieldwork was conducted from June 2006 through May 2007. The audit was
conducted in accordance with generally accepted government auditing standards.




                                      7

GSA/OIG/A060170/P/W/R07005




RESULTS OF REVIEW

Summary
The initial objective of this engagement was to audit HOTD’s operational efficiency and
financial results, which it reports for internal HOTD use only. Our initial survey work
indicated that HOTD maintained operational efficiency measures and compiled financial
statements. Ideally the audit would test the assertions present in these documents,
determine the effects of any discrepancies, and offer recommendations for improvement.
As the fieldwork progressed, it became clear that the operational reports were missing key
input data, such as fuel consumed per boiler. Similarly, on the financial side, we found
that there was no available crosswalk from agency financial data to the HOTD compilation
of financial results. The net result was that the information was essentially not auditable as
presented. These factors required us to adjust the focus of the audit from attestation to
instead exploring the informational boundaries of the available data.

Our primary focus then became an attempt to determine the financial results of operations,
measured in a way that complies with federal accounting standards. In FY 2005, we found
that HOTD operated at an aggregate loss of $20.3 million on revenue of $51.9 million
when applying federal accounting standards. Its rate-setting methodology all but ensures a
loss on operations, as it excludes indirect costs and depreciation on capital assets. We
found that the current account structure made it very difficult to compile these results. We
found accounting errors of a more systemic, PBS-wide nature with respect to asset
recognition and depreciation of equipment purchased under energy savings contracts. We
found deficiencies in HOTD’s own energy savings contract, and disappointment with
savings actually realized. We found an idle backup facility with no long-term strategy.
We found weak control over stored fuel oil. Finally, we found certain financial procedures
that should be changed to improve the accuracy and usefulness of the accounting data.

Findings
1. HOTD Rate Setting Procedures Preclude a Full Cost Recovery

HOTD evaluates its customer billing rates on the basis of cost projections that exclude
certain operating expenses. The two primary exclusions are general and administrative
(G&A) expenses and depreciation. One consequence of this decision is that the HOTD
organization regularly incurs a substantial loss; for the fiscal year ended September 30,
2005, it lost $20.3 million on revenue of $51.9 million1. The agency financial system does
not account for this organization as a discrete entity, so the results of operations is not a
matter of official record. Further, the effort needed to compile these results is
considerable.

HOTD undertakes a portion of this effort each year, compiling data from the financial
system in the course of its annual billing rate development exercise. Its analysis stops

1
    FY 2005 net loss presented in detail in Appendix C.

                                                          8

GSA/OIG/A060170/P/W/R07005



short of computing the full results of operations. With respect to the exclusion of G&A
expenses, it argues that to include this charge as a billed cost element might result in a
double charge for certain customers. This reasoning is inconsistent with the agency
accounting system’s indirect cost allocation methodology2. The G&A expense pool is
made up of a field office, regional and national component. Field office G&A, for
example, is only allocated against direct expenses for that field office. The HOTD
organization is its own field office for G&A allocation purposes, and HOTD’s field office
G&A represented $3.6 million or 81 percent of the total HOTD G&A for FY 2005. It
includes, for example, all the HOTD office salaries and office expenses. From an
accounting perspective, it is a valid cost of operation. For business reasons, HOTD may
choose to exclude such costs from its rate calculation, but it does not follow that such costs
be excluded from its measured results of operations.

HOTD likewise excludes depreciation, and it is not uncommon for governmental entities to
exclude non-cash expenses from certain calculations. It is not appropriate, however, to
exclude depreciation from any financial statement that purports to be a representation of
the results of operations. The language of accounting has meaning only if the conventions
it imposes are uniformly adopted. Again, for business reasons, HOTD may choose to
exclude such a cost from its rate calculation, but depreciation remains a valid accounting
concept and accepted means of allocating the historical cost of an asset across its useful
life.

The following table compares the net loss computation arrived by HOTD with the results
of audit.
                                                                Per HOTD           Per Audit
            Revenue                                              $52,716,082        $51,948,035
            Expenses:
                 • Utilities                                        41,513,878        41,451,776
                 • Maintenance                                      11,414,027        10,082,433
                 • Administration                                    4,303,141         4,621,859
                 • Other                                               376,439            10,000
            Total Direct Expense (BA61)                             57,607,485        56,166,068
            G&A Expense                                                      -         4,497,489
            Depreciation Expense                                             -        11,455,201
            Loss on Operations                                     (4,891,403)      (20,170,724)
            Interest Expense:
            Ellipse Project                                            223,331
            Cogeneration/Chiller Project                             7,542,216         4,448,354
            Reimbursed by Smithsonian Institute                    (4,278,638)       (4,278,638)
            Net Loss                                               (8,378,312)      (20,340,440)


2
  The current G&A allocation methodology is based on a building’s direct expenses. Such an allocation
methodology may assess a disproportionate share of national and regional G&A to HOTD. For example, an
increase in the cost of fuel would result in an increase in the G&A allocated to HOTD. Distortions caused by
this direct expense-based methodology were previously addressed in the Review of PBS Portfolio
Restructuring Initiative, A030080/P/W/R04002, dated December 31, 2003.

                                                     9
GSA/OIG/A060170/P/W/R07005                                                




HOTD’s authority to service its non-Federal Buildings Fund (FBF) customers typically
derives from the customer entity’s originating legislation. In most instances, the
provisions of that legislation require that utility rates charged be reasonable and not less
than cost. Assuming a generic definition of cost, one in accordance with generally
accepted accounting principles, the exclusion of select, material cost elements does not
appear to be authorized. In effect, the FBF is subsidizing the cost of utilities delivered to
its non-FBF customers, which represent approximately 37 percent of HOTD revenue, and
depleting the fund of much needed capital that would otherwise be available for repairs and
improvements to GSA real property in general.

It would be speculative to ascribe HOTD’s loss on operations simply as a failure to pass on
to its customers a full-cost billing rate. Many plant costs are fixed, but most of the billing
rate structure is variable, so a variance is to be expected. Further, the actual cost of fuel
used to generate steam and chilled water is a function of an unpredictable commodities
market. Certain strategies are available to better manage such risks, such as the
commodity futures contracts HOTD uses to lock in the price of natural gas. However, in
HOTD’s case, the effectiveness of this practice as well as plant operations in general, are
not subject to the structured analysis of a properly designed managerial accounting system.
In its place, we found some ad hoc analysis and much unanalyzed raw data. A more
rigorous approach is needed.

2. Planned Energy Savings from Cogeneration System Not Realized

HOTD’s investment in a cogeneration system has not resulted in the energy savings
planned to help fund that acquisition. A cogeneration system produces both steam and
electricity by burning natural gas. The plant has a year round need for steam production as
it provides both heat and hot water to its customer buildings. Electricity is used to operate
the plant in general but especially to power the chillers used to provide cold water for air
conditioning during the cooling season. The expectation was that the cogenerators would
provide for all of the plant’s electricity needs and produce a surplus for sale back to the
utility company. In fact, the plant remains a net consumer of electricity. There are several
contributing factors, but ultimately the system has been operated at about 32 percent of its
theoretical availability and its performance variance from specification has not been tested.

Using contract authority3 derived from Federal Property and Administrative Services Act
of 1949 as amended (40 U.S.C. § 481(a)(3)), the Energy Policy Act of 1992 (42 U.S.C. §
8256), and the National Energy Conservation Policy Act (42 U.S.C. § 8287)4 HOTD

3
  Contract authority is a form of budget authority that permits contracts in advance of appropriations or in
excess of amounts otherwise available under revolving funds. It provides authority to enter into binding
contracts but not the funds to make payments under them. The funds needed to liquidate the obligations must
be provided by subsequent appropriations (called liquidating appropriations) or by the use of receipts or
offsetting collections authorized for that purpose. In this instance, it is the guaranteed energy cost savings
that are the designated source of funding.
4
  We have inferred these authorities from the available, relevant contemporaneous documentation. A
complete contract file was not maintained. The Federal Property and Administrative Services Act of 1949
provides GSA with the statutory authority to acquire utility services, which have been broadly defined to

                                                     10

GSA/OIG/A060170/P/W/R07005



completed a major asset acquisition in December 2004 with the installation of a chilled
water expansion/cogeneration project. This $69M project installed eight chillers and a
cogeneration system in the Central Plant, allowing HOTD to extend chilled water service
to the Smithsonian Institution and configure one boiler to produce both steam and
electricity for use by HOTD or export to the electricity grid. The project was procured
under NCR’s Area Wide Public Utilities Contract with Washington Gas Light Company
(Washington Gas). Financing is provided by a third party commercial lender.

HOTD’s energy conservation project was designed to incorporate the essential features of
an energy savings performance contract (ESPC). This was considered essential to preserve
the necessary contract authority and preclude the project from being “scored” as a capital
project in need of budget authority equal to the present value of the full acquisition cost.
The essential features of an ESPC are that the: 1) project is funded through expected
energy savings that must exceed debt service payments, 2) contract provides for a
guarantee of energy savings, and 3) project is subject to an annual energy audit. These key
features of an ESPC ensure that performance risk under such an energy conservation
project is borne by the contractor, not the government.

GSA’s business case for this project argued that guaranteed energy savings should result in
cost savings sufficient to fully fund the project. Absolute cost savings could not be
guaranteed, as the future cost of natural gas used to power the cogeneration system and the
future market value of electricity were not known, but the authorizing legislation
recognizes this constraint. However, while the contract solicited energy savings
guarantees for both the chiller and cogeneration systems, a review of the available contract
award documentation revealed an agreement that provided only a partial performance
guarantee. A review of the subsequent contract administration documents revealed that
even those limited provisions have not been enforced.

HOTD’s contract with Washington Gas refers to separate performance standards for the
chiller and cogeneration sides of the project. It called for annual performance testing to
ensure these standards were met. An account of deviations was to be maintained to track
actual performance results as credits and penalties against the contract requirements. If
overall performance was less than required by the contract, Washington Gas would be
penalized a settlement sufficient to purchase a quantity of fuel equal to the performance
deviation.

On the chiller side of the project, the terms of the energy savings guarantee are clearly
established but not fully administered. Output and efficiency are measured against agreed
upon benchmarks and performance testing is conducted. Testing was done in 2004 and
2006 but waived by HOTD in 2005 due to operational issues that would have forced

include energy savings measures such as those being discussed here. The specific contract authority under
that Act is limited to ten years. The Energy Policy Act of 1992 has been read to permit multi-year energy
savings contracts with no year limitation. (The contract action in question was financed over a 15 period.)
The National Energy Conservation Policy Act presents the necessary attributes to create an “energy savings
performance contract” or ESPC. Principle among those attributes is a specific type of energy savings
guarantee provision. The ESPC contract term may extend 25 years.

                                                    11
GSA/OIG/A060170/P/W/R07005                                    




testing to be conducted during the peak load season. In 2004, Washington Gas’
performance exceeded the SOW requirements and credits should have been assessed. In
2006, several tests did not meet the SOW requirements and penalties should have been
entered into the account of deviations. The account is not maintained, however, because
no one at HOTD is presently serving in the capacity of the contracting officer’s technical
representative (COTR). A COTR would be charged with administering the contract in
accordance with the contract specified terms and conditions.

On the cogeneration side of the project, the contract does not create an energy savings
guarantee. While it does call for an annual audit, the contract does not appear to establish
specific audit criteria and no audit has been conducted to date. The Combustion Turbine
Performance Agreement section of the contract does make reference to a performance
agreement “…set forth in Exhibit A-Technical Proposal, Tab #20.” But Tab #20 houses
only the terms of a nine-year service agreement with Solar Turbines Incorporated. The
agreement stipulates that Solar will guarantee 97 percent availability, prorating the
$400,080 annual fee if it fails to perform. Maximum offset is limited to five percent of the
fee. Absent from this guarantee is any energy savings metric, such as fuel efficiency or
energy output. The risk of unrealized energy savings is borne entirely by the government
instead of by the contractor.

Had the contract included cogeneration performance standards, HOTD would still have
been unable to conduct performance testing due to operational limitations. When the
chiller/cogeneration project was designed, Washington Gas believed that HOTD’s existing
induced draft (ID) fan could operate at the level required to achieve SOW performance
standards. The existing ID fan was therefore retained for use in the new system. However,
the ID fan was not operating at original design specifications, a deficiency that may trace
to its initial installation in the 1970s. Since Washington Gas cannot be held responsible for
this deficiency, HOTD accepted the project as substantially complete and ultimately found
itself responsible for replacement of the ID fan. HOTD has stated that it has secured
funding for a replacement and is in the process of procuring a new fan. Once installed and
operating at specification, cogeneration performance testing can commence.

Limitations of the ID fan contributed to underutilization of the system, but by plan, HOTD
has limited use of the turbines to about 32 percent of design capacity. It could not,
however, provide analytical justification to support this operating plan. There are multiple
factors to be considered. These include the cost of natural gas, the market value of
electricity and the relative efficiency of the plant’s conventional boilers. It is our
understanding that the design criteria of the cogeneration system implies outputs as a
percentage of fuel input to be approximately 10 percent electricity, 70 percent steam, and
20 percent loss. HOTD does not measure individual boiler efficiency, but with a plant-
wide loss factor of more than 20 percent, there is at least the potential for value from
greater utilization of the cogeneration system. The initial business case, for example,
assumed that turbines would be in use 24 hours a day, seven days a week. While the
relevant cost factors may have veered from the initial assumptions, the actual basis for the
current operating plan appears to be more anecdotal than analytical. To optimize the
operational efficiency of its plant, HOTD should establish a formal analytical process that

                                             12

GSA/OIG/A060170/P/W/R07005



incorporates all of the relevant variables. Further, it must measure the operational
efficiency of each of its conventional boilers.

The impact of underutilization is that PBS does not achieve a positive cash flow after debt
payment, which was one of the requirements to qualify for third party financing. Financial
projections showed that the project was expected to generate a positive cash flow after debt
payments of $517,568 per year. However, the positive cash flow was based on the
turbines generating enough electricity to sell $502,023 of surplus electricity after internally
supplying all of HOTD’s needs. For FY 2005 HOTD remained a net consumer of
electricity, incurring an expense of $1,868,466 for the year.

As a final note, our review of this project was hampered because of inadequate
documentation maintained by the contracting officer. There is no official contract file and
no record of delegation to designate the current contracting officer’s technical
representative (COTR). The contracting officer stated that all source documents were with
HOTD and that he could provide no additional information. He was unable to name the
current COTR or provide evidence of such delegation. The records kept by HOTD did not
constitute a proper contract file.

3. Lack of Strategy Leaves West Plant Idle and Deteriorating

The West Heating Plant (West Plant) was constructed in 1948 and is included on the
National Register of Historic Places. According to the Asset Business Plan, the plant is
located on 1.7 acres in the Georgetown area of Northwest Washington, DC. Housing five
boilers and no chillers, it was previously a backup for the Central Heating Plant.
Beginning in FY 1996, HOTD ceased normal operations at the West Plant to decrease
costs, but maintained plant functionality. By FY 2000, the plant was in need of
reinvestment funds to operate safely, but was not needed for servicing HOTD’s customer
load. With the support of HOTD, the then PBS NCR Assistant Regional Administrator
decommissioned the West Plant.

GSA Order OHR P 5440.1 CHGE 440 charges NCR’s Portfolio Management Division
(Portfolio) with overall responsibility within the region for developing strategies for and
maximizing financial performance of individual assets. As part of this asset management
responsibility, Portfolio develops Asset Business Plans (ABP) for each asset. According to
the June 1, 2007 ABP, the West Plant is located in, “one of the most desirable areas of
Washington, DC”. The ABP calls attention to the need to develop a future strategy for the
asset, i.e. retention and reactivation or disposal, yet does not discuss any factors to be
considered or address the delay in strategy development, which now spans more than a
decade.5



5
 HOTD awarded a contract for Strategy Planning Analysis to ISES Corporation, which commenced June 6,
2007. The study calls for the development and analysis of short and long-term strategies and action plans
addressing GSA’s need to provide energy services.

                                                   13

GSA/OIG/A060170/P/W/R07005                                    




The plant is currently inoperable and its repair needs extensive. A feasibility study, GSA
HOTD System Capacity and Service Expansion—Feasibility Study, issued in December
2006, estimates that $15.3 to $19 million would be required to bring the West Plant back
into operation. Because of the significant cost, a prospectus would be required to
reactivate the West Plant, requiring the project to compete for scarce capital investment
dollars and congressional approval. It seems unlikely that a back-up heating plant will
ever top the list of federal construction projects. This may explain the prolonged
stalemate.

Nevertheless, with a heightened security environment and the desire to produce steam in
the West Plant to allow for Central Plant repairs, HOTD would now like to bring the West
Plant back into operation. The feasibility study recommends that the West Plant be
reactivated if risk analysis determines that enhanced system reliability associated with two
plants is needed; it recommends sale of the West Plant if such reliability is not required.
The report also suggests connecting HOTD’s steam distribution system with the Architect
of the Capitol’s Capitol Power Plant system for increased system reliability. HOTD is
currently developing a business plan for NCR management, which will outline HOTD’s
current requirements and begin the process of creating a strategy for the asset.

Assuming a viable business case can be made to recommission the plant, there may be an
alternative to prospectus funding. The use of an energy savings performance contract
might be justifiable depending on the level of overall energy cost savings. For example, if
a refurbished West Plant could reduce overall operating costs by lessening dependency on
the larger, less efficient boilers of the Central Heating Plant, the cost savings might be
sufficient to cover the debt service. Further, if the customer base could be expanded, it
may be possible to spread many of the current fixed costs over a larger base, reducing the
cost per unit of energy delivered.

Any operational redundancy that would result would actually be a desirable byproduct, as
HOTD currently has no established contingency plan to deal with a partial or full plant
shutdown. As currently configured, a major disruption to the Central Plant could have a
significant impact on the executive branch of the federal government, as HOTD services
multiple headquarter agency buildings, the Executive Office Buildings, and the White
House. In June 2006, area flooding affected the Central Plant and steam tunnels, resulting
in a loss of services to 80 percent of its customers. HOTD estimated that the loss could
have been limited to about 30 percent if the West Plant had been available as a backup
facility. Had this incident occurred during the heating season, executive branch locations
could have been rendered uninhabitable, with the potential for both structural and system
damages due to freezing temperatures.

In any event, the status quo allows the asset to deteriorate, generates no value for the
Federal Buildings Fund, and contradicts PBS portfolio management strategy. If
investment funds are not forthcoming, disposal appears to be the indicated choice.




                                            14

GSA/OIG/A060170/P/W/R07005



4. Controls Over Fuel Oil

Five of the six boilers used to generate steam at HOTD’s Central Plant are periodically
powered by fuel oil as an alternative to natural gas. While not the primary energy source,
fuel oil does represent a significant cost. HOTD recorded fuel oil expense of $2.1 million
in FY 2005, accounting for five percent of total utilities expense. It is stored in five tanks
adjacent to the Central Plant plus a holding tank or “day tank”. The total storage capacity
is about one million gallons. Inventory turnover is approximately one time per year.

The risk that a fuel oil loss or shortage would go undetected is unacceptably high - fuel oil
is fungible and vulnerable to diversion. In addition, the current practice of inferring oil
usage from steam produced has not been tested for accuracy. HOTD relies upon these
output conversions to generate a fuel oil usage report as required under its environmental
operating permit. Inaccurate usage data would also, in theory, distort the value of fuel oil
expense allocable to a given time period, but HOTD’s accounting treatment for fuel oil
ignores usage data altogether. Its method of accounting for fuel oil is not compliant with
generally accepted accounting principles, and interjects a distortion effect of its own.

To establish accountability during a given period, HOTD needs to have established:
(a) An accurate measure of on-hand inventory levels;
(b) Verifiable evidence of actual quantities delivered; and
(c) An accurate measure of quantity consumed.
HOTD’s procedures are weak in each of these aspects.

   4 (a) Physical Inventory
         Fuel oil, unlike natural gas, or other utilities, is purchased and then stored until
         used. The proper accounting treatment would have the purchase accounted for as
         an asset and only expensed as consumed. The value of fuel oil used would be
         determined on the basis of a declared, consistently applied inventory valuation
         method, such as first-in, first-out. HOTD, however, does not account for fuel oil
         as an asset. All purchases are expensed as paid. From a HOTD accounting
         perspective, there is no asset to safeguard. With no asset, there is no need to
         determine the value at the beginning and end of an accounting period.
         Consequently, HOTD does not record the inventory value for this asset. A
         fundamental element of internal control is therefore absent.

   4 (b) Deliveries
         HOTD uses a “Central Heating Plant Fuel Oil Receiving Log” to manually record
         fuel oil delivered to the Central Plant tank farm. Deliveries are accounted for by
         truckload by both the trucking company and HOTD’s receiving log. The
         receiving log provides an accounting record for fuel deliveries by including the
         date, tanker truck ticket number, gross and net gallons per the Bill of Lading, fuel
         yard tank number, beginning tank level, ending tank level, gallons received, the
         technician’s initials, and a certification by the foreman that the log sheet is
         correct. If the log were filled out accurately and completely it would provide

                                             15

GSA/OIG/A060170/P/W/R07005                                   




        independent verification that all the fuel oil HOTD purchased was delivered to its
        tanks.

        We selected for a detailed review the fuel oil receiving log for January 2005. We
        found that only one tanker delivery was recorded completely on the fuel log, that
        is, it had a tank number identified, a beginning start level recorded and an ending
        level recorded. The remaining 44 deliveries contained numerous mistakes,
        inaccuracies and omissions. As a result, the fuel oil log does not fulfill a control
        purpose to document receipt and support invoice payment approval.

   4 (c) Fuel Oil Consumption
         Fuel oil to be consumed is fed from the five receiving storage tanks into the day
         tank and then to the boilers. With the exception of the cogeneration system, each
         boiler has a meter to measure the quantity of fuel oil it consumes. The plant
         formerly burned Number 6 fuel oil, which is a thick, syrupy, tar-like liquid. The
         meters were not reliable when used with this fuel. In the absence of metering
         HOTD developed a method to derive fuel oil consumed from the quantity of
         steam produced in MBTUs converted to gallons. At the time of our review
         HOTD had switched to Number 2 fuel oil, which could be metered, but still
         continued to account for fuel oil consumed indirectly from the quantity of steam
         produced. Deriving the quantity of fuel oil consumed by this method is inexact.
         It relies on the accuracy of the amount of time recorded on the daily boiler
         logbooks that a boiler is consuming gas versus oil. Also, because it may take
         about an hour to transition a boiler from natural gas to fuel oil, there is some
         overlap of natural gas and fuel oil use on a boiler at the same time.

        To test the reliability of the reported quantities of fuel oil consumed, we
        compared the observed quantity of fuel oil on-hand in July 2006 with the
        expected quantity on-hand based on HOTD’s internal documentation. We used
        the tank level readings recorded on the daily boiler room logbooks on January 1,
        2005 as our beginning balance. We added the subsequent deliveries recorded on
        the January, February and December 2005 Central Heating Plant Fuel Oil
        Receiving Logs, and because the receiving logs for deliveries during October and
        November 2005 were missing we used the paid fuel oil invoices for those months
        to identify the quantity delivered. We subtracted the consumed fuel oil reported
        on the HOTD Fuel Quantity Reports to derive the expected on-hand fuel oil
        quantity:




                                           16

GSA/OIG/A060170/P/W/R07005                                         




                   Beginning Inventory (Jan 2005)          807,557
                   Plus: Deliveries (Jan 2005-Jul 2006)  1,052,181
                   Less: Consumption (Jan 2005-Jul 2006) 1,061,753
                   Expected Ending Inventory (Jul 2006)    797,985
                   Observed Ending Inventory (Jul 2006)    885,906
                   Variance                                              87,921

         The quantity of on-hand fuel oil we observed exceeds the expected quantity of
         fuel oil by 87,921 gallons. In our opinion the most likely explanation for the
         “surplus” on-hand fuel oil is that oil consumption is being overstated but since
         the meters are not used we could not measure the accuracy of the fuel oil
         consumed.

         HOTD can tell at any time how much fuel oil is on-hand, but because of the
         incomplete delivery documentation and imprecise consumption data, HOTD
         cannot tell how much fuel oil it should have on-hand.

5. Other Accounting Concerns

Review of the financial aspects of HOTD’s operations yielded several accounting
weaknesses.      Issues discovered include: inappropriate accounting for an energy
conservation project depreciation expense, incorrect RWA type, lack of a discrete HOTD
identifier, and lack of a business line cost allocation model. These concerns require the
attention not only of HOTD but also of PBS financial divisions.

   5 (a) Inappropriate Accounting of Energy Conservation Project Depreciation Expense

         The principle value of the chilled water expansion/cogeneration project is
         $69.4M. The project is a multiple asset project, meaning that multiple assets are
         being acquired under one project number. Each asset under such a project has an
         individual substantial completion date upon which depreciation should begin for
         that individual asset. There are three assets associated with project number
         JDC00567.

                                                                             Substantial
         Asset                                           Value
                                                                             Completion Date
         South Side and North Side Chiller Plants, Chilled $44,809,504       December 12, 2002
         Water Distribution, and Cooling Towers
         Customer Connections                              $2,700,000        July 18, 2003
         Cogeneration and Chiller Controls                 $21,859,629       December 30, 2004

         Depreciation for project number JDC00567 should have begun in December
         2002 by depreciating the $44.8M associated with the project’s first asset. Full
         project depreciation should have begun in December 2004 when the entire project
         was completed. The Real Property Accounting and Depreciation System


                                               17
GSA/OIG/A060170/P/W/R07005                                               




           (RPADS) is the information system used for assessing depreciation. RPADS
           however cannot be used for multiple asset projects as it cannot process more than
           one substantial completion date for a given project number. As a result, PBS had
           to manually generate the depreciation for project number JDC00567.

           Fort Worth’s Financial Analysis Group was responsible for manually generating
           the depreciation for HOTD’s energy conservation project as part of an effort to
           correct accounting data for energy savings projects nationwide. However, a
           manual worksheet adjustment was not generated or integrated into GSA’s
           financial statements until FY 2005. The FY 2005 financial statements included a
           worksheet adjustment for accumulated depreciation on JDC00567 from
           substantial completion through FY 2005. The substantial completion date used in
           this worksheet adjustment, October 1, 2002, was incorrect however.6 Of the
           $14.07M accumulated depreciation recorded in FY 2005, $4.69M was
           specifically associated with FY 2005 depreciation. This $4.69M depreciation is
           in addition to the $6.77M depreciation associated with HOTD in the financial
           systems and increases HOTD’s net loss.

    5 (b) Unsuitable RWA Type Distorts Accounting Data and Indirect Cost Recovery

           The Reimbursable Work Authorization (RWA) type utilized for HOTD services
           resulted in inappropriate accounting for HOTD revenue and expenses. United
           States Code 40 § 592(b)(2) authorizes GSA to provide services above the
           standard rent level to customer agencies on a reimbursable basis via an RWA
           (GSA Form 2957). As described in the PBS Chief Financial Officer’s May 4,
           2005 Reimbursable Work Authorization National Policy Document, there are two
           major RWA categories: recurring and non-recurring. Under a recurring RWA,
           the cost of above standard services cannot be readily identified. The recurring
           RWA is not based on actual costs, as actual costs cannot be determined. Costs
           under a non-recurring RWA can be identified. A non-recurring RWA is based
           on actual costs, such as paid vendor invoices. Under these two categories there
           are eight RWA types.




6
  PBS has since corrected the worksheet adjustment to reflect the individual substantial completion dates of
the three assets.

                                                    18

GSA/OIG/A060170/P/W/R07005                                              




               RWA Category       RWA Type       Description
               Non-recurring         A           Identifiable costs for non-prospectus construction or
                                                 design repairs and alterations
               Non-recurring           B         Identifiable costs for prospectus repairs and alterations
               Recurring               C         Unidentifiable costs to service private sector under Public
                                                 Buildings Cooperative Use Act
               Non-recurring           D         Identifiable costs to service private sector under Public
                                                 Buildings Cooperative Use Act
               Non-recurring           E         Identifiable costs for nationally declared emergencies or
                                                 disasters
               Non-recurring           F         Identifiable costs for open ended, small-scale services
                                                 within a fiscal year
               Non-recurring           N         Identifiable costs for non-prospectus space alterations and
                                                 services
               Recurring               R         Unidentifiable costs to federal customer

             In FY 2005, HOTD’s 28 non-GSA building customers and 21 customers in GSA
             owned and delegated buildings paid for utility services via a recurring, R-type
             RWA. As discussed above, recurring RWAs are utilized in situations where the
             cost of above-standard services cannot be readily identified. But HOTD is able to
             meter steam and chilled water usage by customer, therefore actual costs are
             identifiable.

             The use of the recurring RWA understates both revenue and expenses. Under a
             recurring RWA, sales are recognized as a credit to expense, or a contra expense,
             rather than as revenue. This treatment differs for non-recurring RWAs, where
             sales are recorded as revenue. PBS explains that the contra expense revenue
             recognition for recurring RWAs is necessary because the expense itself is not
             known, only estimated, and therefore must be offset by related revenue.
             Accounting practice dictates that revenue from an organization’s ongoing major
             or central operations should be realized as revenue and not as a contra expense.
             Utility sales represent HOTD’s ongoing major operation and should be classified
             as revenue. By recording utility sales as a contra expense, all expenses equivalent
             to the amount of revenue received are offset and appear to have not occurred. In
             FY 2005, the HOTD organization showed only $65,380 direct revenue and
             $14,447,116 total expense. Appropriately recording sales would have showed the
             actual HOTD direct revenue of $51,948,035 and total expense of $66,329,7707.
             Although the net loss is the same, the financial systems do not include an
             accurate accounting of revenue and expenses.

             In order to correct the accounting data, the HOTD RWA type should be changed
             from R-type recurring. PBS should consider the creation of an RWA type
             specific to HOTD services, as utility sales are not a good fit for the current RWA
             model. The newly created RWA type should not record revenue as a contra
             expense.


7
    Total HOTD expenses before adjustments discussed in Appendix D.

                                                   19

GSA/OIG/A060170/P/W/R07005




   5 (c) No Discrete Financial Identifier for HOTD

        The unique nature of the HOTD organization complicates financial analysis. The
        HOTD organization includes the four plant building numbers as well as 28 non-
        GSA building numbers, only associated with GSA for HOTD utility services, and
        two distributable cost centers (Appendix B). When querying GSA’s financial
        information systems, a query based on organizational code does not capture all
        data associated with HOTD operations. In order to acquire all financial data prior
        to manual worksheet adjustments, queries must be run using the 32 building
        numbers and two distributed cost center numbers. The need to include all
        building numbers is tedious and often unknown to PBS associates. Expenses and
        revenue associated with these non-GSA buildings should have been charged to
        the related HOTD assets and not assigned GSA building numbers.

        Accounting for the HOTD organization could be made clearer by treating the four
        plant assets as a facility. PBS considers a facility to be a group of buildings
        associated through shared space or services. Labeling the HOTD assets as a
        facility would allow for shared costs to be appropriately distributed among the
        assets.

   5 (d) HOTD Lacks Business Line Cost Allocation Model

        HOTD is a unique organization within GSA and the financial systems are not
        tailored to HOTD’s needs. The Financial Management Information System
        (FMIS) does not allow for the cost allocation by HOTD business line that is
        required for a more precise rate setting. For example, function code PGA33 in
        FMIS represents accounting data associated with electricity. All electricity costs
        incurred by HOTD will be charged against PGA33. However, FMIS does not
        include a field to differentiate whether the electricity was used in the production
        of steam or chilled water. The same situation holds for expenses such as labor
        and operations and maintenance.

        Historically, HOTD has not allocated costs by business line when establishing
        utility rates. We requested that HOTD develop a documented methodology for
        allocating expenses along the steam and chilled water business lines. HOTD
        created such an allocation using FY 2006 expenses. HOTD provided an
        explanation of the minor adjustments needed to apply this allocation to FY 2005
        operations. The audit team applied HOTD’s conceptual allocation to FY 2005
        financial system data (see Appendix D). With such an allocation methodology,
        HOTD can analyze its business lines separately, determining where loss is
        occurring and improvements can be made.




                                           20

GSA/OIG/A060170/P/W/R07005                                   




         FY 2005 Net Income: 

             Steam                   <$ 13,839,455>        68.0% 

             Chilled Water           <$ 6,500,985>         32.0%        

              Total HOTD             <$ 20,340,440>


         HOTD should continue to refine its cost allocation methodology as more data
         becomes available. Developing a refined cost allocation methodology will allow
         HOTD to more precisely segregate costs when developing steam and chilled
         water rates. HOTD should fully document the rationale behind revisions to the
         cost allocation methodology and ensure costs reconcile with the financial
         systems. This effort should involve significant coordination with PBS NCR’s
         Financial Management Division.


Conclusion
Our review found various accounting, procurement, and operational issues that should be
addressed to improve HOTD’s performance. Given the unique nature of the HOTD
organization, financial system data needs to be adjusted to obtain a representative picture
of HOTD financial performance. In particular HOTD should recognize all general and
administrative and depreciation expense, correct the RWA type used, allocate expenses by
business line, and consider treating the operation as one facility. HOTD should restore
contract administration for the chilled water expansion/cogeneration project. Key
operational issues include the cogeneration system not realizing planned energy savings,
weak controls over fuel oil, and the lack of a strategy for the West Plant. The services
provided by HOTD are essential to federal government agencies within NCR, but areas for
improvement remain.




                                            21

GSA/OIG/A060170/P/W/R07005



Recommendations
Based on the review findings, the following recommendations are provided to the Regional
Administrator, National Capital Region:

1.	 Prepare annual financial statements for HOTD that comply with Federal Accounting
    Standards.
2.	 Subject the HOTD organization to more rigorous financial and operational analysis.
    HOTD would benefit from dedicated financial support and could likely justify a full
    time financial specialist.
3.	 Develop a boiler operating plan that takes into account market conditions and relative
    efficiency of the equipment.
4.	 Instruct the contracting officer to assemble a contract file for the chiller/cogenerator
    procurement and to fulfill his administrative responsibilities under this procurement.
5.	 Ensure that the contracting officer designate a qualified individual to serve as the
    contracting officer’s technical representative.
6.	 Replace the deficient induced draft fan to permit as-designed system functionality and
    performance testing of the cogeneration system.
7.	 Utilizing the PBS portfolio management methodology, determine the best use of the
    West Plant asset and develop a workable strategy. Consider the possibility of
    restoring the West Plant with an energy savings performance contract.
8.	 Devise a contingency plan for providing utility services in the event Central Plant
    operations are interrupted.
9.	 Account for fuel oil in accordance with generally accepted accounting principles: the
    commodity should be carried by HOTD as an asset until consumed; its value should be
    derived from a consistently applied inventory valuation method; fuel oil expense should
    be determined on the basis of actual fuel consumed in the period reported.
10. With respect to specific internal controls: determine fuel oil consumption using the
    automated gauges on the boilers; maintain the fuel oil delivery log; perform periodic
    inventory reconciliation of fuel oil to provide reasonable assurance of accuracy and to
    detect loss.
11. Discontinue the use of recurring Reimbursable Work Authorizations (RWA) for HOTD
    services in order to correct accounting data. HOTD sales should be recognized as
    revenue, not a contra expense. Consider the development of an RWA type specific to
    HOTD utility sales.
12. Recognize the HOTD organization as a discrete facility within the financial system.
13. Develop the capability to isolate HOTD financial activities by business line.




                                             22

GSA/OIG/A060170/P/W/R07005



Management’s Comments
The Regional Administrator, National Capital Region concurred with the review
recommendations. Management’s comments can be found in their entirety in Appendix A,
including efforts already initiated to address several review recommendations.

Management Controls
The review commented on several operational and financial control issues. Operationally,
control issues were found in fuel oil inventory procedures and contract administration.
HOTD’s procedures for measuring on-hand fuel oil inventory, receiving fuel oil deliveries,
and measuring fuel oil consumed were all weak. Contract administration for a major
energy conservation project was lax, with no formal contract file or delegated contracting
officer’s technical representative. Financially, control weaknesses were found in the areas
of fuel oil accounting, depreciation accounting, RWA type utilized, and business line cost
identification. HOTD incorrectly accounts for fuel oil as an expense rather than as an
asset. The review discussed accounting for depreciation of the energy conservation
project, an area in which PBS has made corrections. The RWA type used by HOTD was
unsuitable, resulting in the inappropriate recording of revenue as a contra expense.
Additionally, HOTD does not track costs by business line and was therefore unable to
determine the financial performance of the steam and chilled water segments.




                                            23

GSA/OIG/A060170/P/W/R07005

APPENDIX A
                             Management’s Comments




                                     A-1

GSA/OIG/A060170/P/W/R07005

APPENDIX A
                       Management’s Comments (continued)




                                     A-2

GSA/OIG/A060170/P/W/R07005

APPENDIX A
                       Management’s Comments (continued)




                                     A-3

GSA/OIG/A060170/P/W/R07005

APPENDIX A
                       Management’s Comments (continued)




                                     A-4

GSA/OIG/A060170/P/W/R07005


APPENDIX B
                       Assets Included in HOTD Organizational Code
                              for Financial Reporting Purposes
    Building Number              Building Name                 Asset Type            Customer Type
    DC0001ZZ           Central Heating Plant            GSA-owned                   N/A
    DC0002ZZ           West Heating Plant               GSA-owned                   N/A
    DC0006ZZ           Archives                         Not GSA asset               IPAC8
    DC0018ZZ           FOB 1                            Not GSA asset               IPAC
    DC0041ZZ           GAO                              Not GSA asset               IPAC
    DC0057ZZ           425 Second Street                Not GSA asset               Non-IPAC
    DC0058ZZ           Superior Court D                 Not GSA asset               IPAC
    DC0134ZZ           FHLBBB Constr                    Not GSA asset               IPAC
    DC0135ZZ           Air & Space                      Not GSA asset               IPAC
    DC0200ZZ           Bureau of Eng/Prin               Not GSA asset               IPAC
    DC0201ZZ           Bureau of Eng/Prin Annx          Not GSA asset               IPAC
    DC0202ZZ           Smithsonian Building             Not GSA asset               IPAC
    DC0204ZZ           Hirshhorn                        Not GSA asset               IPAC
    DC0224ZZ           DC Court House                   Not GSA asset               IPAC
    DC0296ZZ           Central Heating Plant A/C        GSA-owned                   N/A
    DC0300ZZ           National Academy of Science      Not GSA asset               Non-IPAC
    DC0301ZZ           Federal Reserve                  Not GSA asset               Non-IPAC
    DC0400ZZ           Steam Distribution Tunnels       GSA-owned                   N/A
    DC0610ZZ           Washington Monument              Not GSA asset               IPAC
    DC1264ZZ           Freer Art Gallery                Not GSA asset               IPAC
    DC1267ZZ           Superior Court 0A                Not GSA asset               IPAC
    DC1271ZZ           Corcoran Art Gallery             Not GSA asset               IPAC
    DC1272ZZ           DAR                              Not GSA asset               Non-IPAC
    DC1277ZZ           Juvenile Court                   Not GSA asset               Non-IPAC
    DC1278ZZ           Martin Luther King Library       Not GSA asset               Non-IPAC
    DC1279ZZ           Municipal Center                 Not GSA asset               Non-IPAC
    DC1280ZZ           Municipal Court                  Not GSA asset               IPAC
    DC1281ZZ           Smithsonian Steam Service 4BD    Not GSA asset               IPAC
    DC1282ZZ           National Gallery of Art          Not GSA asset               IPAC
    DC1283ZZ           Pan Am Building                  Not GSA asset               Non-IPAC
    DC1287ZZ           Recorder of Deeds                Not GSA asset               Non-IPAC
    DC1355ZZ           History & Technology             Not GSA asset               IPAC
    DCC11020150        District Heating FOC             Distributable cost center   N/A
    DCC11020310        Central Support FOC              Distributable cost center   N/A




8
  IPAC refers to the Department of Treasury’s Intra-Governmental Payment and Collection system, which
allows direct transfer of funds between an agency’s Treasury account and GSA’s Treasury account.

                                                 B-1
GSA/OIG/A060170/P/W/R07005


APPENDIX C
                                 FY 2005 HOTD Net Loss

REVENUE                                                               % Revenue Notes
   Steam Sales (A34)                                      $47,892,181    92%     A
   Chilled Water Sales (A37)                               $3,987,573    8%      B
   Other Revenue (Direct Revenue and RWA Overhead 981)        $68,280    0%      C
   Total Revenue                                          $51,948,034   100%
FUEL COST
   Gas (A31)                                              $34,800,749    67%
   Water/Sewage (A32)                                      $2,694,753     5%
   Electricity (A33)                                       $1,868,466     4%
   Oil (A36)                                               $2,087,808     4%
   Total Fuel Cost                                        $41,451,776    80%
GROSS MARGIN                                              $10,496,258    20%
DIRECT OPERATING EXPENSE
   Depreciation Expense                                   $11,455,201    22%     D
   Mechanical O&M                                          $9,690,178    19%     E
   Project Management                                      $1,502,892     3%     F
   Cleaning                                                 $247,833      0%     G
   Protection                                                 $10,000     0%     H
   Other/Miscellaneous                                     $3,263,389     6%     I
   Total Direct Operating Expense                         $26,169,493    50%
GENERAL & ADMINISTRATIVE EXPENSE
   Field Office (P1121020)                                  $3,649,833    7%
   Regional G&A                                              $298,122     1%
   National G&A                                               $549,534    1%
   Total G&A Expense                                        $4,497,489    9%
LOSS ON OPERATIONS                                       ($20,170,724)   -39%
INTEREST EXPENSE
   Utility Financed Energy Projects (A39)                   $4,448,354    9%     J
   SI Chilled Water Service Assessment (A39)              ($4,278,638)    -8%    K
   Net Interest Expense                                      $169,716     0%
NET LOSS                                                 ($20,340,440)   -39%    L




                                             C-1

GSA/OIG/A060170/P/W/R07005


APPENDIX C
                               Notes to FY 2005 HOTD Net Loss

 Notes
    A.	 See following supporting tables at pages B-3 and B-4.
    B.	 See following supporting table at page B-5.
    C.	 FY 2005 revenue also included $65,380 for an antenna outlease at the West Plant and $2,900
        from RWA overhead fees.
    D.	 In FY 2005, a manual worksheet adjustment was made to GSA's financial statements to correct
        improper accounting for energy savings projects nationwide. A $14,066,519 adjustment was
        made for accumulated depreciation for HOTD’s energy conservation project number JDC00567.
        Of this adjustment, $4,688,840 was depreciation related to FY 2005 that must be added to the
        financial system depreciation of $6,766,362 to correctly reflect HOTD operations.
    E.	 See following supporting table at page B-5.
    F.	 See following supporting table at page B-5.
    G.	 See following supporting table at page B-6.
    H.	 See following supporting table at page B-6.
    I.	 See following supporting table at page B-6.
    J.	 In FY 2005, a manual worksheet adjustment was made to GSA's financial statements to correct
        improper accounting for energy savings projects nationwide. A $469,865 adjustment was made
        to interest expense A39 for HOTD’s energy conservation project number JDC00567. This
        $469,865 interest expense must be added to the financial system interest of $3,978,489 to
        correctly reflect HOTD operations. Interest expense should be factored into HOTD’s financial
        summary after the loss on operations, as interest expense is not a direct result of a given fiscal
        year’s operations.
    K.	 In order to provide chilled water to the Smithsonian Institution (SI), HOTD began a chiller
        expansion/cogeneration project in 2000. The project was financed through alternative third-
        party financing as an energy conservation project. In a Memorandum of Agreement with
        HOTD, SI agreed to finance the chiller expansion portion of the project. SI remits $4,278,638 to
        HOTD annually for payment against the financing note. This assessment is intended to cover
        financing for the chiller portion of the project and is not related to actual chilled water
        operations. As a result, it is considered an offset to the project’s interest expense.
    L.	 The financial systems show a FY 2005 net loss for HOTD of $14,381,735. However, notes D, E,
        and J describe adjustments required to HOTD FY 2005 financial data. The correct net loss
        figure for HOTD in FY 2005 is $20,340,440 after adjusting depreciation ($4,688,840),
        operations and maintenance ($800,000), and interest ($469,865) expenses.




                                                   C-2

GSA/OIG/A060170/P/W/R07005


APPENDIX C
                        Notes to FY 2005 HOTD Net Loss (continued)
Note A-Steam Sales includes sales of 586,713 MLBS steam to 27 customers paying directly through the
Federal Buildings Fund (FBF) and 1,300,250 MLBS steam to 49 customers paying through Reimbursable
Work Authorization (RWA). Customers paying through RWA reside in delegated buildings or are private
sector customers outside the FBF. The FY 2005 steam rate was $25.95/MLBS. Note there is a two percent
variance between the steam sales figure in the financial system and the supporting data provided from
HOTD.

          Direct Steam Sales
                   Building Name         Building #     Usage (MLBS)        FY 2005 Bill
          NATIONAL COURTS               DC0094ZZ              12,714.40   $      329,938.68
          EXEC. MANSION                 DC0017ZZ              13,070.00   $      339,166.50
          O.E.O.B.                      DC0035ZZ              44,022.00   $    1,142,370.90
          F.O.B. 6                      DC0010ZZ              15,792.60   $      409,817.97
          F.O.B. NEOB                   DC0105ZZ              33,073.00   $      858,244.35
          F.O.B. 10A                    DC0083ZZ              30,063.70   $      780,153.02
          F.O.B. 10B                    DC0084ZZ              24,613.20   $      638,712.54
          G.S.A. CENTRAL                DC0021ZZ              22,534.40   $      584,767.68
          WILBUR J COHEN BLDG           DC0034ZZ              30,787.00   $      798,922.65
          MARY E SWITZER BLDG           DC0033ZZ              24,945.80   $      647,343.51
          U.S. CUSTOMS                  DC0522AB              32,240.00   $      836,628.00
          LAFAYETTE                     DC0026ZZ              10,459.60   $      271,426.62
          NEW POST OFFICE               DC0028ZZ              23,689.90   $      614,752.91
          POTOMAC ANNEX                 DC0591BE              10,838.00   $      281,246.10
          R.O.B.                        DC0031ZZ              13,915.55   $      361,108.56
          U.S. COURT HOUSE              DC0014ZZ              11,623.20   $      301,622.04
          US. TAX CT.                   DC0114ZZ               5,375.80   $      139,502.01
          WINDER                        DC0048ZZ               1,341.10   $       34,801.55
          1724 F. ST.                   DC0078ZZ               1,502.80   $       38,997.66
          2430 E ST NW,SOUTH            DC0533AC               2,373.00   $       61,579.35
          PENSION                       DC0030ZZ               7,733.30   $      200,679.14
          VETERNS                       DC0007ZZ              18,432.20   $      478,315.59
          RONALD REAGAN                 DC0459AF             153,647.00   $    3,987,139.65
          FBI ANNEX                     DC0463ZZ              11,809.80   $      306,464.40
          U.S SECRET SERVICE BLDG       DC0505ZZ              15,418.70   $      400,115.27
          F.O.B. 8                      DC0086ZZ               4,543.00   $      117,890.85
          OLD POST                      DC0029ZZ              10,153.80   $      263,491.11
          TOTAL                                              586,712.86   $ 15,225,198.59




                                                 C-3

GSA/OIG/A060170/P/W/R07005


APPENDIX C
                      Notes to FY 2005 HOTD Net Loss (continued)

              Reimbursable Steam Sales
                    Building Name       Building #    Usage (MLBS)         FY 2005 Bill
              H.O.B. 2                 DC0018ZZ              22,236.00   $      577,024.20
              B.E.P. ANNEX             DC0201ZZ              49,267.40   $    1,278,489.03
              B.E.P MAIN               DC0200ZZ              79,528.10   $    2,063,754.20
              CORCORAN                 DC1271ZZ              10,103.80   $      262,193.61
              D.A.R.                   DC1272ZZ               3,062.00   $       79,458.90
              FED. RESERVE             DC0301ZZ              35,352.00   $      917,384.40
              HOOVER                   DC0090ZZ              51,343.00   $    1,332,350.85
              FREER                    DC1264ZZ              25,167.50   $      653,096.63
              HIRSHORN                 DC0204ZZ              32,577.00   $      845,373.15
              SUP. CT. A               DC1267ZZ               6,713.60   $      174,217.92
              SUP. CT. C               DC1277ZZ               2,230.80   $       57,889.26
              MLK LIB.                 DC1278ZZ              13,388.00   $      347,418.60
              MUNCIPAL CENTER          DC1279ZZ              16,565.80   $      429,882.51
              MUSEUM GRP.              DC1281ZZ              83,943.00   $    2,178,320.85
              SUP. CT. B               DC1280ZZ               5,806.50   $      150,678.68
              AMER. HIST. MUSEU DC1355ZZ                     51,232.70   $    1,329,488.57
              NAT. RES. COUNCIL        DC0300ZZ               6,252.50   $      162,252.38
              NAT. AIR & SPACE         DC0135ZZ              50,577.10   $    1,312,475.75
              N.G.A                    DC1282ZZ              75,957.80   $    1,971,104.91
              DC. CT. HOUSE            DC0224ZZ              23,749.50   $      616,299.52
              O.A.S.                   DC1283ZZ               5,139.00   $      133,357.05
              REC. DEEDS               DC1287ZZ               1,499.50   $       38,912.03
              TREASURY DEPT.           DC0551ZZ              37,446.70   $      971,741.87
              SUP. CT. D.              DC0058ZZ                      -   $
              WASH. MON.               DC0610ZZ                      -   $
              O.T.S.                   DC0134ZZ               3,174.50   $       82,378.28
              LABOR                    DC0116ZZ              42,713.50   $    1,108,415.33
              JUSTICE                  DC0023ZZ              40,220.60   $    1,043,724.57
              COMMERCE                 DC0013ZZ              49,255.10   $    1,278,169.85
              AGRICULTURE              DC0003ZZ              80,830.70   $    2,097,556.68
              HUD                      DC0092ZZ              31,396.00   $      814,726.20
              COMM. ON. SOC. SEC DC0057ZZ                     9,625.50   $      249,781.73
              H.H.H.                   DC0115ZZ              22,823.00   $      592,256.85
              ARCHIVES                 DC0006ZZ              34,641.50   $      898,946.93
              INTERNAL REVENUE DC0022ZZ                      32,677.80   $      847,988.91
              AFRICAN QUAD             DC0202ZZ              23,618.00   $      612,887.10
              STATE DEPT.              DC0046ZZ              84,380.10   $    2,189,663.60
              FED. TRADE COMM.         DC0019ZZ               6,843.00   $      177,575.85
              H.O.L.C.                 DC0075ZZ               3,918.00   $      101,672.10
              FORRESTAL                DC0093ZZ              38,322.00   $      994,455.90
              THEO. ROOSE. BLD.        DC0082ZZ              13,149.50   $      341,229.53
              CT. MIL APPEALS          DC0016ZZ               2,719.70   $       70,576.22
              INTERIOR MAIN            DC0020ZZ              34,004.00   $      882,403.80
              INTERIOR SOUTH           DC0032ZZ               3,167.50   $       82,196.63
              LIBERTY LOAN             DC0024ZZ                 747.40   $       19,395.03
              G.A.O.                   DC0041ZZ              28,260.00   $      733,347.00
              BLAIR HOUSE              DC0042ZZ               3,755.90   $       97,465.61
              F.D.I.C.                 DC0085ZZ               9,521.80   $      247,090.71
              TARIFF                   DC0036ZZ              11,346.00   $      294,428.70
              TOTAL                                       1,300,250.40   $ 33,741,497.89
              GRAND TOTAL                                 1,886,963.26   $ 48,966,696.48




                                                     C-4

GSA/OIG/A060170/P/W/R07005


APPENDIX C
                        Notes to FY 2005 HOTD Net Loss (continued)

Note B-There are two rate structures for chilled water billing. USDA and DOE were billed for 109,767
MBTUs at a flat rate of $22.84/MBTU. The Smithsonian Institution (SI) is billed according to a
Memorandum of Agreement based on a debt service payment, capacity charge, and consumption charge. SI
was billed for 143,627 MBTUs of chilled water. Note there is a four percent variance between the chilled
water sales figure in the financial system and the supporting data provided from HOTD.

                 Reimbursable Chilled Water Sales
                  Building Name Building # Usage (MBTU)                 FY 2005 Bill
                 AGRICULTURE DC0003ZZ              66,038.07      $       1,508,309.52
                 FORRESTAL       DC0093ZZ          43,728.52      $         998,759.39
                 SMITHSONIAN DC0135ZZ             143,626.66      $       1,657,270.11
                 TOTAL                            253,393.25      $      4,164,339.02


Note E-Adjusted total mechanical O&M expense category by adding in $800,000 of A42 expense that was
erroneously recorded in FY 2006.

             Mechanical O&M
                             Function Code Level Expense                         Amount
             Electrical Operations & Maintenance (A41)                         $  1,069,122
             Heating, Ventilation, and Air Conditioning Maintenance (A42)      $  5,210,494
             Adjustment (A42)                                                  $    800,000
             Plumbing/Sewage Operations & Maintenance (A43)                    $      2,020
             Elevator & Escalator Operations & Maintenance (A44)               $     44,965
             Fire Protection Systems Maintenance (A45)                         $     25,684
             Maintenance Repairs (A46)                                         $  1,963,131
             General Mechanical (A47)                                          $    567,723
             (A4Z)                                                             $      7,040
             Total Mechanical O&M Expense                                      $ 9,690,178


Note F—No adjustments required to project management data taken from financial systems.

                     Project Management
                             Function Code Level Expense                Amount
                     Environmental Studies (111)                      $       96,971
                     Environmental Assessment (113)                   $            736
                     Energy Audits & Studies (141)                    $         5,870
                     Design (211)                                     $     138,550
                     Design-Miscellaneous (231)                       $       16,601
                     Primary Contracts (413)                          $ 1,150,613
                     Management & Inspection-Construction (511)       $       49,955
                     CM Management & Inspection Review (512)          $               2
                     Miscellaneous-M&I (521)                          $       43,595
                     Total Project Management Expense                 $ 1 , 5 0 2 , 8 92




                                                   C-5

GSA/OIG/A060170/P/W/R07005


APPENDIX C
                         Notes to FY 2005 HOTD Net Loss (continued)
Note G—No adjustments required to cleaning data taken from financial systems.

                      Cleaning
                             Function Code Level Expense                     Amount
                      Building Cleaning-Interior & Exterior (A11)       $       217,761
                      Ground & Road Maintenance (A12)                   $         5,204
                      Trash (A13)                                       $        24,869
                      Total Cleaning Expense                             $     247,833


Note H—No adjustments required to protection data taken from financial systems.

                            Protection
                               Function Code Level Expense Amount
                            Security Guarding (K20)        $ 10,000
                            Total Protection Expense       $ 10,000


Note I-Financial system roll-up for HOTD's other/miscellaneous expense shows a $3,234,079 expense. In
this profit and loss statement, contra expense 981 for RWA overhead was moved to revenue and energy
savings performance contracts A38 expense was moved into the other/miscellaneous category, showing other
expense of $3,263,389.

                  Other/Miscellaneous
                          Function Code Level Expense                        Amount
                  Staff Support (901)                               $             140,300
                  Procurement (903)                                 $                1,500
                  Portable Communications (906)                     $                    (1)
                  (90Z)                                             $                   10
                  Training-Direct (921)                             $                1,292
                  Acquisition Training (926)                        $                2,466
                  Chief Financial Officer (941)                     $              65,056
                  Telephone (954)                                   $               (9,672)
                  Fire & Life Safety (A21)                          $              60,022
                  Energy Savings Performance Contracts (A38)        $              26,410
                  Space Changes (A51)                               $              50,611
                  Building Support (A61)                            $             129,682
                  Cafeteria Equipment (A64)                         $                1,872
                  Operations & Maintenance-Staff Support (A91)      $           2,793,842
                  Total Other/Miscellaneous Expense                 $         3,263,389




                                                   C-6

      GSA/OIG/A060170/P/W/R07005


      APPENDIX D
                               FY 2005 HOTD Cost Allocation by Business Line

                                                    Unallocated             Steam                Chilled Water    Notes
Revenue                                                                                                            A
   Steam Sales (A34)                            $        47,892,181 $          47,892,181                          B
   Chilled Water Sales (A37)                    $         3,987,573                       $             3,987,573 C
   Other Revenue                                $            68,280 $              58,502 $                 9,778 D
   Total Revenue                                $        51,948,035 $          47,950,684 $             3,997,351

Fuel Cost
   Gas (A31)                                    $         34,800,749    $      34,800,749    $                        E
   Water/Sewage (A32)                           $          2,694,753    $       2,099,213    $            595,540     F
   Electricity (A33)                            $          1,868,466    $         115,845    $          1,752,621     G
   Oil (A36)                                    $          2,087,808    $       2,087,808    $                        H
   Total Fuel Cost                              $        41,451,776     $      39,103,614    $          2,348,162

Gross Margin                                    $        10,496,259 $           8,847,069 $             1,649,190

Direct Operating Expense
   Depreciation                                 $        11,455,201     $       5,797,419    $          5,657,783     I
   Mechanical O&M                               $         9,690,178     $       8,527,357    $          1,162,821     J
   Project Management                           $         1,502,892     $       1,349,200    $            153,692     K
   Cleaning                                     $           247,833     $         224,041    $             23,792     L
   Protection                                   $            10,000     $           8,830    $              1,170     M
   Other/Miscellaneous                          $         3,263,389     $       2,926,229    $            337,160     N
   Total Direct Operating Expense               $        26,169,493     $      18,833,075    $          7,336,418

General and Administrative Expenses
   Field Office (P1121020)                      $          3,649,833    $       3,127,177    $            522,656     O
   Regional G&A                                 $            298,122    $         255,431    $             42,691     O
   National G&A                                 $            549,534    $         470,841    $             78,693     O
   Total G&A Expense                            $          4,497,489    $       3,853,449    $            644,040

Loss on Operations                              $       (20,170,724) $        (13,839,455) $           (6,331,269)

Interest Expense
    Utility Financed Energy Projects (A39)      $          4,448,354    $               -    $           4,448,354    P
    SI Chilled Water Service Assessment (A39)   $         (4,278,638)   $               -    $          (4,278,638)   Q
    Net Interest Expense                        $            169,716    $               -    $             169,716
Net Loss                                        $       (20,340,440)    $     (13,839,455)   $         (6,500,985)    R




                                                             D-1

  GSA/OIG/A060170/P/W/R07005


  APPENDIX D
                      FY 2005 HOTD Cost Allocation by Business Line (continued)
Notes

    A.	   The methodology used to allocate revenue and expenses between the steam and chilled water business lines was based on an allocation
          methodology created by HOTD upon audit request. HOTD's methodology is based on historical data, experience, and estimates and
          has not been tested or refined through HOTD operations. The audit team is aware of imperfections in the allocation methodology. For
          example, HOTD's allocation methodology allocated all natural gas expense to the steam business line. However, some natural gas is
          used in the production of chilled water and should be applied to that business line. Although this exercise is a first attempt at cost
          allocation by business line, HOTD can improve the methodology as more data becomes available.

    B.	   Allocated completely to steam business line.

    C.	   Allocated completely to chilled water business line. Of A37 chilled water sales, $1,508,310 is associated with USDA, $998,759 is
          from DoE, and $1,504,524 is related to SI. Note this sales breakdown obtained from HOTD supporting documentation exceeds
          financial system A37 figure by 0.6 percent.

    D.	   Allocated based on business line percentage of total direct expense (85.7 percent to steam and 14.3 percent to chilled water).

    E.	   Gas expense allocated completely to steam business line based on HOTD methodology. As mentioned in Note A, the audit team is
          aware of imperfections in this allocation methodology.

    F.	   Water/sewage expense allocated 77.9 percent to steam and 22.1 percent to chilled water based on HOTD methodology.

    G.	 Electricity expense allocated 6.2 percent to steam and 93.8 percent to chilled water based on HOTD methodology.

    H.	 Oil expense allocated completely to steam business line based on HOTD methodology.

    I.	   In FY 2005, a manual worksheet adjustment was made to GSA's financial statements to correct improper accounting for energy savings
          projects nationwide. A $14,066,519 adjustment was made for accumulated depreciation for HOTD’s energy savings project number
          JDC00567. Of this adjustment, $4,688,840 was depreciation related to FY 2005 that must be added to the financial system
          depreciation of $6,766,362 to correctly reflect HOTD operations. First allocated this $4,688,840 for project number JDC00567
          depreciation to chilled water. Then allocated remaining depreciation based on business line percentage of total direct expense (85.7
          percent to steam and 14.3 percent to chilled water).

    J.	   Adjusted total mechanical O&M expense category by adding in $800,000 of A42 expense that was erroneously recorded in FY 2006.
          Then applied maintenance allocation of 88 percent to steam and 12 percent to chilled water.

    K.	 Project management expense includes 73.9 percent administrative-type expenses and 26.1 percent maintenance-type expenses.
        Applied administrative and maintenance allocations to each portion of project management expense.

    L.	   Applied administrative allocation of 90.4 percent to steam and 9.6 percent to chilled water.

    M.	 Applied security allocation of 88.3 percent to steam and 11.7 percent to chilled water.

    N.	   Adjusted total other/miscellaneous expense category by moving 981 RWA overhead to revenue and adding in A38 energy savings
          performance contract expense for a total of $3,263,387. Allocated A38 expense completely to chilled water. Then applied
          administrative allocation of 90.4 percent to steam and 9.6 percent to chilled water.

    O.	 Allocated based on business line percentage of total direct expense (85.7 percent to steam and 14.3 percent to chilled water).

    P.	   In FY 2005, a manual worksheet adjustment was made to GSA's financial statements to correct improper accounting for energy savings
          projects nationwide. A $469,865 adjustment was made to interest expense A39 for HOTD ESPC project number JDC00567. This
          $469,865 interest expense must be added to the financial system interest of $3,978,489 to correctly reflect HOTD operations. Interest
          expense should be factored into HOTD’s financial summary after the loss on operations, as interest expense is not a direct result of a
          given fiscal year’s operations.

    Q.	 In order to provide chilled water to the Smithsonian Institution (SI), HOTD began a chiller expansion/cogeneration project in 2000.
        The project was financed through alternative third-party financing as an energy conservation project. In a Memorandum of Agreement
        with HOTD, SI agreed to finance the chiller expansion portion of the project. SI remits $4,278,638 to HOTD annually for payment
        against the financing note. This assessment is intended to cover financing for the chiller portion of the project and is not related to
        actual chilled water operations. As a result, it is considered an offset to the project’s interest expense.

    R.	   The financial systems show a FY 2005 net loss for HOTD of $14,381,735. However, notes E, G, and K describe adjustments required
          to HOTD FY 2005 financial data. The correct net loss figure for HOTD in FY 2005 is $20,340,349 after adjusting interest ($469,865),
          depreciation ($4,688,840), and operations and maintenance ($800,000) expenses.


                                                                      D-2

GSA/OIG/A060170/P/W/R07005


APPENDIX E
                                                  Report Distribution

                                                                                                                         Copies 


Commissioner, Public Buildings Service (P)........................................................................ 1 


Regional Administrator, National Capital Region (WA)...................................................... 3 


Chief Financial Officer (B) ................................................................................................... 2


Audit Follow-up and Evaluation Branch (BECA) ................................................................ 1 


Office of Audits (JA, JAO) ................................................................................................... 2 


Real Property Audit Office (JA-R) ....................................................................................... 1 


Regional Inspector General for Investigations (JI-W) .......................................................... 1 





                                                               E-1

